HHS/OIG - Audit -"Medicaid Monthly Payments for School-Based, Health-Related Services in North Carolina, (A-04-00-02161)"
Department
of Health and Human Services
Office of Inspector General -- AUDIT
"Medicaid Monthly Payments for School-Based, Health-Related Services in North Carolina," (A-04-00-02161)
November 7, 2001
Complete
Text of Report is available in PDF format (1.66 mb). Copies can also be obtained by contacting the Office of Public
Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
This final report points out that the North Carolina Division of Medical Assistance (DMA) made payments totaling $5.3
million (Federal share) for school-based, health-related services to Local Education Agencies using a methodology that
was not included in its approved State Plan. These conditions occurred because DMA exercised minimal oversight of the activities
of its revenue maximization subcontractor.  We recommended that the DMA refund the Federal share of any overpayment
resulting from a planned monthly payment cost settlement process and exercise more oversight over the activities of its
revenue maximization subcontractor.